                                                                             R




              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              m AY 6 , 2 0 1 4




                     Improvement Needed for
                     Management of Commemorative
                     Program Funds




I n t e g r I t y  e f f I c I e n c y  a c c o u n ta b I l I t y  e x c e l l e n c e
         I n t e g r I t y  e f f I c I e n c y  a c c o u n ta b I l I t y  e x c e l l e n c e




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                   the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




                                        Fraud, Waste & Abuse

                                        HOTLINE
                                        Department of Defense
                                        d o d i g. m i l / h o t l i n e




For more information about whistleblower protection, please see the inside back cover.
                                         Results in Brief
                                         Improvement Needed for Management of
                                         Commemorative Program Funds



May 6, 2014                                           Findings Continued

Objective                                             funds had no expiration date instead of citing the reference to Public
                                                      Law 111-383, which limited the period the funds were available
We determined whether accounting of funds             for obligation to September 30, 2013. As a result, the Army DCS, G-2
used for the Korean War 60th Commemoration            initiated actions that violated Public Law 111-383 and may have
(KWC60) program was accurate and complete.            violated the Antideficiency Act.


Findings                                              Recommendations
The Army’s accounting of funds used for the           The Secretary of the Army should issue implementing guidance
KWC60 program was incomplete and inaccurate.          for effectively performing Executive Agent responsibilities in
Specifically, the Army Deputy Chief of Staff          accordance with DoD Directive 5101.1, which includes developing
(DCS), G-2 did not accurately record or report        standard operating procedures that identify key processes, roles,
all of KWC60 program funding and costs,                and responsibilities for resource management.
or maintain source documents to support
transactions recorded in the accounting               The Assistant Secretary of the Army (Financial Management and
system. As a result, funding and cost data of         Comptroller) should:
the KWC60 program are not reliable, and a
potential for improper payments exists.                  • obtain and review supporting documentation for $517,510
Additionally, the Army spent at least $2.5 million         in disbursements and initiate corrective actions if improper
more than the $5 million spending limit set by             payments are found;
Public Law 111-383. As a result, the Army
                                                         • initiate a preliminary review in accordance with DoD
did not comply with the Public Law
                                                           Regulation 7000.14-R, volume 14, chapter 3 to determine
111-383 spending limit and may have
                                                           whether the Army violated the Antideficiency Act, and, if it did,
violated     the   Antideficiency   Act.    These
                                                           recommend corrective actions, including actions for responsible
conditions occurred because the Army did
                                                           officials; and
not effectively perform the Executive Agent
responsibilities, such as monitoring resources           • initiate corrective action to identify and transfer all
or preserving records, in accordance with DoD              unobligated amounts that remained in the DoD Korean War
Directive 5101.1.                                          Commemoration Fund as of September 30, 2013.

An Army contracting officer obligated $125,100
of donations on behalf of the Army DCS, G-2 after     Management Comments and
the funds were no longer available to use for the     Our Response
KWC60 program. In addition, the Army DCS,
G-2 transferred less money to the DoD Vietnam         Comments from the Secretary of the Army and the Assistant
War Commemorative Fund than required. These           Secretary of the Army (Financial Management and Comptroller)
conditions occurred because the Army DCS,             were responsive.  No further comments are required.  Please see
G-2 indicated on a purchase order that the            the Recommendations Table on the back of this page.


  Visit us on the web at www.dodig.mil


                                                                    Report No. DODIG-2014-067 (Project No. D2013-D000FE-0150.000) │ i
                   Recommendations Table
                                                                     Recommendations     No Additional Comments
                                     Management                      Requiring Comment          Required
                    Secretary of the army                                                a.1
                    assistant Secretary of the army                                      a.2.a, a.2.b, a.2.c, b.1,
                    (financial Management and comptroller)                               b.2, b.3




ii │ Report No. DODIG-2014-067 (Project No. D2013-D000FE-0150.000)
                                      INSPECTOR GENERAL
                                     DEPARTMENT OF DEFENSE
                                     4800 MARK CENTER DRIVE
                                  ALEXANDRIA, VIRGINIA 22350-1500


                                                                                             May 6, 2014

MEMORANDUM FOR AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Improvement Needed for Management of Commemorative Program Funds
         (Report No. DODIG-2014-067)

We are providing this report for your information and use. We performed the audit in response
to Public Law 111-383. The Army’s accounting of funds used for the Korean War 60th Commemorative
program was not accurate or complete. The Army spent at least $2.5 million more than the
$5 million spending limit set by Public Law 111-383, and, as a result, may have violated the
Antideficiency Act. Additionally, the Army Deputy Chief of Staff, G-2 initiated a contracting action that
improperly obligated $125,100 after the funds were no longer available and transferred less money
than required to the DoD Vietnam War Commemorative Fund—another potential violation of the
Antideficiency Act.

We considered management comments on a draft of this report when preparing the final report.
 Comments from the Secretary of the Army and the Assistant Secretary of the Army (Financial
Management and Comptroller) conformed to the requirements of DoD Directive 7650.3; therefore, we
do not require additional comments.

We appreciate the courtesies extended to the staff. Please direct questions to me at (703) 601-5945
(DSN 329-5945).




	                                             Lorin T. Venable, CPA
                                              Assistant Inspector General
                                              Financial Management and Reporting




                                                                                        Report No. DODIG-2014-067 │ iii
                   Contents
                   Introduction _____________________________________________________________________________1
                   Objective _________________________________________________________________________________________1
                   Background ______________________________________________________________________________________1
                   Designation of Executive Agent ________________________________________________________________1
                   Management of Program Funds _______________________________________________________________2
                   Review of Internal Controls ____________________________________________________________________3

                   Finding A. Accounting of Korean War 60th
                   Commemoration Program Funding and Costs Was Not
                   Complete or Accurate ____________________________________________________________4
                   Improvement Needed in Recording and Reporting Obligations and Disbursements ______4
                   Improvement Needed in Maintaining Source Documents ___________________________________5
                   Statutory Spending Limit Exceeded ___________________________________________________________5
                   Executive Agent Responsibilities Not Effectively Performed___________________________ 6
                   Recommendations, Management Comments, and Our Response ___________________________8

                   Finding B. Donations Were Obligated After Period
                   of Availability ________________________________________________________________________ 11
                   Donations Improperly Obligated ____________________________________________________________ 11
                   Transfer of Donations_________________________________________________________________________ 12
                   Recommendations, Management Comments, and
                   Our Response__________________________________________________________________________________ 13

                   Appendixes ____________________________________________________________________________ 16
                   Appendix A. Scope and Methodology _______________________________________________________ 16
                         Use of Computer-Processed Data ______________________________________________________ 17
                   Appendix B. DoD Designation of Executive Agent _________________________________________ 18
                   Appendix C. Army Delegation of Executive Agent _________________________________________ 20
                   Appendix D. Other Management Comments and Our Response __________________________ 21

                   Mangement Comments ______________________________________________________ 23
                   Secretary of the Army ________________________________________________________________________ 23
                   Assistant Secretary of the Army (Financial Management and Comptroller) _____________ 28

                   Acronyms and Abbreviations _____________________________________________ 30
iv │ Report No. DODIG-2014-067
                                                                                          Introduction




Introduction
Objective
Our objective was to determine whether the accounting of funds used by the
Department of Defense for the Korean War 60-year commemoration was accurate
and complete. See Appendix A for Scope and Methodology.


Background
Public Law 111-383, effective January 7, 2011, authorized the Secretary of Defense
to establish and conduct a commemorative program for the 60th anniversary of the
Korean War. The purpose of the commemoration was to:

        • honor the service and sacrifice of Korean War Veterans, including
           American Service members and their allies, who fought heroically to
           preserve freedom;

        • commemorate the key events of the war; and

        • educate the American people about the significance of the Korean War.

The law also required the Secretary of the Treasury to establish the DoD Korean War
Commemoration (KWC) Fund, available to and administered by the Secretary of
Defense for conducting the commemorative program. The law limited the Secretary
of Defense’s spending for the commemorative program to $5 million in amounts
appropriated to the Department of Defense. In addition, Public Law 111-383 required
that at the end of the commemorative program, the DoD Inspector General report
to Congress, an accounting of:

        • all funds deposited into and expanded from the KWC Fund;

        • any other funds expended for the program; and

        • any unobligated funds remaining in the KWC Fund as of September 30, 2013,
           that are transferred to the DoD Vietnam War Commemorative Fund.

Designation of Executive Agent
On May 25, 2010, before implementation of Public Law 111-383, the Deputy
Secretary of Defense designated the Secretary of the Army as the DoD Executive
Agent to plan and conduct commemorative activities for the 60th Anniversary of the
Korean War for the remainder of FY 2010. The designation memorandum stated




                                                                             Report No. DODIG-2014-067 │ 1
Introduction



                  that the Assistant Secretary of Defense for Public Affairs will provide guidance to
                  the Executive Agent regarding the proper use of manpower, equipment, and
                  other DoD assets in support of the 60th Anniversary of Korean War Commemorative
                  activities. See Appendix B for the DoD Designation of the Executive Agent.1
                  The Secretary of the Army further delegated DoD Executive Agent responsibilities
                  to the Army Deputy Chief of Staff (DCS), G-2. See Appendix C for the Army Delegation
                  of the Executive Agent. The Executive Agent responsibilities included coordinating
                  with the Office of the Chief of Legislative Liaison, the Office of the Chief of Public
                  Affairs, and the Secretary of the Army on plans for the way ahead and the status
                  of activities. The Korean War 60th Commemoration (KWC60) Committee, as a joint
                  planning committee made up of the Army, Navy, Air Force, and Marine Corps, was
                  formed to plan, coordinate, and execute program events and activities. The KWC60
                  Committee sponsored or participated in 159 events and activities attended by more
                  than 1.8 million Korean War veterans and members of the general public.


                  Management of Program Funds
                  The KWC60 program used the Army Operations and Maintenance (O&M) Fund and
                  donations to the DoD KWC Fund to finance the KWC60 program events and activities.
                  Army O&M funds are annually appropriated and used for day-to-day operations,
                  civilian salaries, travel, training and education, base operations support, and other
                  routine expenses. O&M funds expire after 1 year and must be obligated or used in the
                  fiscal year the funds are appropriated. The DoD KWC Fund2 was specifically set up
                  for the KWC60 program and only used for donations received. Unlike O&M funds,
                  there was no fiscal-year restriction on the use of donations. However, in accordance
                  with Public Law 111-383, donations in the DoD KWC Fund were available to
                  finance KWC60 program events and activities only until September 30, 2013. The
                  law required that any unobligated amounts remaining in the DoD KWC Fund as of
                  September 30, 2013 be transferred to the DoD Vietnam War Commemorative Fund.

                  The Army Budget Office (ABO) distributed O&M funds as authorized by the Army,
                  to the Army DCS, G-2 Budget Office for use in support of the program.  The G-2
                  Budget Office functioned as the fund manager for the KWC60 Committee and
                  accounted for funds distributed to and executed by the KWC60 Committee.  The



                  	




2 │ Report No. DODIG-2014-067
Deputy Director of the KWC60 Committee certified contractors’ charges for the
contracts awarded for event planning and management support.


Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
May 30, 2013, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating
as intended and to evaluate the effectiveness of the controls. We identified control
weaknesses pertaining to the accuracy and completeness of funds spent for the
KWC60 program.       In addition, the Army exceeded its statutory spending limit for
the KWC60 program by at least $2.5 million and improperly obligated $125,100 in
donations. We will provide a copy of the report to the senior official responsible
for internal controls in the Army.




                                                                            Report No. DODIG-2014-067 │ 3
Finding A




                  Finding A
                  Accounting of Korean War 60th Commemoration
                  Program Funding and Costs Was Not Complete
                  or Accurate
                  The Army’s accounting of funds used for the KWC60 program was incomplete and
                  inaccurate. Specifically, the Army DCS, G-2 did not:

                                • accurately record or report all the obligations and disbursements related to
                                   the KWC60 program; or

                                • maintain source documents to support obligations and disbursements
                                   recorded in the accounting system.

                  In addition, the Army spent at least $2.5 million3 more than the $5 million spending
                  limit set by Public Law 111-383 for the KWC60 program. This occurred because
                  the Army did not effectively perform the Executive Agent responsibilities, such as
                  monitoring resources or preserving records, in accordance with DoD Directive 5101.1.
                  As a result, funding and cost data of the KWC60 program are not reliable, and a
                  potential for improper payments exists.                         The Army also did not comply with the
                  Public Law 111-383 spending limit and may have violated the Antideficiency Act.

                    3
                        We estimated the excessive spending based on disbursements the Army DCS, G-2 reported for each of three consecutive
                        fiscal years beginning with FY 2011. Therefore, the excessive spending is expected to be greater when other obligated
                        funds are disbursed.




                  Improvement Needed in Recording and Reporting
                  Obligations and Disbursements
                  The Army DCS, G-2 report on obligations and disbursements related to the KWC60
                  program was inaccurate and incomplete.  Specifically, the Army DCS, G-2 did not
                  record or report to the DoD Office of Inspector General $262,768 of the $10.7 million
                  in obligations and $1.2 million of $8.7 million in disbursements for the KWC60
                  program.          For example, the Army DCS, G-2 incorrectly recorded an obligation of




4 │ Report No. DODIG-2014-067
                                                                                                      Finding A



                             $66,826 instead of $86,471 for contracted services, because
    The Army reported         the Army DCS, G-2 did not include $19,645 of labor cost. The
      $6.8 million in           Army DCS, G-2 also reported $323,088 as disbursed for
    disbursements for
                                travel, which was $49,953 less than the $373,041 travel
contracted services, which
 was $1 million less than       costs incurred. In addition, the Army reported $6.8 million
  $7.8 million disbursed.       in disbursements for contracted services, which was $1 million
                              less than $7.8 million disbursed.




     Improvement Needed in Maintaining
     Source Documents
     The Army DCS, G-2 Budget Office did not maintain source documents to support all
     the obligations and disbursements recorded in the accounting system, as required by
     DoD Directive 5101.1, “DoD Executive Agent,” September 3, 2002. Specifically, the
     Army DCS, G-2 could not provide support for $74,021 of $10.7 million in obligations
     and $4 million of $8.7 million in disbursements it reported for the KWC60
     program. To validate the amounts disbursed, we contacted the Defense Finance and
     Accounting Service (DFAS) and obtained source documents to support $3.5 million in
     disbursements. Neither DFAS, Indianapolis, nor the Army DCS, G-2 could provide the
     appropriate source documents to support the remaining $517,510 in disbursements
     or identify the location of the documents.

     The unsupported disbursements of $517,510 are potentially improper payments.
     According to the Office of Management and Budget Circular A-123, Appendix C,
     “Requirements for Effective Measurement and Remediation of Improper Payments,”
     April 14, 2011, a payment is improper when an agency’s review is unable to discern
     whether a payment was proper, as a result of insufficient or lack of documentation.
     The Assistant Secretary of the Army (Financial Management and Comptroller) should
     obtain and review supporting documentation for the $517,510 in disbursements
     and initiate corrective actions if improper payments are found.


     Statutory Spending Limit Exceeded                                          The Army
     The Army spent at least $2.5 million more than the                       spent at least
                                                                            $2.5 million more
     $5 million spending limit set by Public Law 111-383 for
                                                                           than the $5 million
     the KWC60 program. Specifically, the Army spent a total of           spending limit set by
     $9.0 million for the KWC60 program, of which $1.5 million            Public Law 111-383
     was spent before the law was enacted on January 7, 2011.                for the KWC60
                                                                                program.


                                                                                     Report No. DODIG-2014-067 │ 5
                  We did not question the $1.5 million spent before the law was enacted.4 However,
                  spending for the KWC60 program was limited to $5 million after the public law
                  became effective, but the Army spent approximately $7.5 million—$2.6 million in
                  FY 2011, $2.4 million in FY 2012, and $2.5 million in FY 2013—which exceeded the
                  $5 million spending limit by $2.5 million.


                  Executive Agent Responsibilities Not
                  Effectively Performed
                  The Deputy Secretary of Defense designated the Secretary of the Army as the
                  DoD Executive Agent for the KWC60 program. However, the Army did not effectively
                  perform the Executive Agent responsibilities in accordance with DoD Directive
                  5101.1, which requires the Executive Agent to:

                                • designate a focal point to coordinate matters regarding assigned DoD
                                  Executive Agent responsibilities, functions, and authorities;

                                • monitor    resources    used   in   performing     assigned     responsibilities
                                  and functions;

                                • report results of performance as may be required by law;

                                • establish, maintain, and preserve information as records that document
                                  the transaction of business and mission of the DoD Executive Agent; and

                                • identify requirements and resources to the extent permitted by law.

                  Although the Army designated the Director of the KWC60 Committee as the focal
                  point, no single individual or office monitored resources used for the KWC60 program.
                  Personnel in the Army DCS, G-2 Budget Office stated that the responsibilities and
                  functions for the KWC60 program were not tasks they would normally perform. Rather,
                  the responsibilities and functions were ad-hoc tasks they considered outside the scope
                  of their operations, and Army DCS, G-2 Budget Office personnel were not familiar with
                  the process and procedures for carrying out the commemorative program.  Because
                  there were no defined procedures, roles, or responsibilities for fund management,
                  neither Army DCS, G-2 Budget Office personnel nor the KWC60 Committee reconciled
                  accounting data to verify accuracy and completeness or maintained supporting
                  documents. As a result, funding and cost data of the KWC60 program are not reliable.




                  	




6 │ Report No. DODIG-2014-067
The Army DCS, G-2 did not agree that the Executive Agent responsibilities were
not performed effectively in accordance with DoD Directive 5101.1, stating that it
accounted for and managed the KWC60 program using the General Fund Enterprise
Business System (GFEBS) and DFAS databases and reports. The Army DCS, G-2
stated that DFAS was responsible for keeping the accounting and payment records for
the KWC60 program.                    However, DoD Directive 5101.1 specifically requires that the
Executive Agent monitor resources; report results of performance; and establish,
maintain, and preserve information as records documenting the transaction of
business. Therefore, the responsibility of record retention remains with the Army DCS,
G-2 as part of its required Executive Agent responsibilities.                                        The Secretary of the
Army should issue implementing guidance for effectively performing Executive Agent
responsibilities in accordance with DoD Directive 5101.1, which includes developing
standard operating procedures that identify key processes, roles, and responsibilities
for resource management.

The Army also did not identify requirements and resources permitted by law in
accordance with DoD Directive 5101.1.  Specifically, the Army did not identify the
$5 million spending limit imposed by Public Law 111-383 and authorized $12.2 million
to fund the KWC60 program, which was $7.2 million more than the law allowed. The
Director of Army Staff approved the KWC60 spending plan based on an action plan
submitted by the Director of the KWC60 Committee. Although the action plan noted
that a public law approving the KWC60 program and authorizing funding was pending
before Congress, neither the Director of KWC60 Committee nor the Director of Army
Staff reduced the spending plan to comply with the public law when it was passed.
The Army DCS, G-2 acknowledged that it exceeded the $5 million spending limit for the
KWC60 program and stated that it “did so unintentionally and without malice in keeping
with the perceived intent of Public Law 111-383, Section 574 . . . .”                                                 Violating a
spending limitation imposed by the public law may constitute a violation of
the      Antideficiency           Act     under        section       1341,       title     31,     United          States     Code.5
DoD Regulation 7000.14-R, “DoD Financial Management Regulation,” volume 14,
chapter 3, “Preliminary Reviews of Potential Violations,” requires the Assistant
Secretary of the Army (Financial Management and Comptroller) to evaluate whether
a potential violation identified by the audit report has occurred and, as a result of
the evaluation, initiate a preliminary review.                              The Assistant Secretary of the Army
(Financial          Management              and        Comptroller),            should         initiate        a     preliminary
review of the potential Antideficiency Act violation, in accordance with DoD

 5
     DoD Regulation 7000.14-R, “DoD Financial Management Regulation,” volume 14, chapter 2, paragraph 020202, identifies
     general circumstances when Antideficiency Act violations occur, including when a statutory limitation is exceeded for the
     amount authorized in an appropriation or fund, to include special and recurring statutory limitations or restrictions on the
     amounts for which an appropriation or fund may be used.



                                                                                                                        Report No. DODIG-2014-067 │ 7
                  Regulation 7000.14-R, and provide the results to the DoD Office of Inspector
                  General.        If the Assistant Secretary of the Army (Financial Management and
                  Comptroller) determines that a reportable Antideficiency Act violation occurred, he
                  should determine which officials are responsible, recommend corrective actions,
                  and provide the results to the DoD Office of Inspector General.


                  Recommendations, Management Comments, and
                  Our Response
                  Recommendation A.1
                  We recommend the Secretary of the Army issue implementing guidance for
                  effectively performing Executive Agent responsibilities in accordance with DoD
                  Directive 5101.1, which includes developing standard operating procedures that
                  identify key processes, roles, and responsibilities for resource management.


                  Secretary of the Army Comments
                  The Vice Director of the Army Staff, responding for the Secretary of the Army,
                  agreed, stating that the Army will draft an Army directive by October 31, 2014, and
                  an Army regulation by May 31, 2016, to provide guidance for effectively performing
                  Executive Agent responsibilities.  Specifically, the regulation will establish a
                  workgroup to periodically assess existing Army Executive Agent responsibilities
                  and provide oversight and support to new Army Executive Agent responsibilities.

                  The Vice Director also provided comments on other sections of the report that
                  related to the background information, findings, and recommendations.  Those
                  additional comments and our responses are summarized in Appendix D.


                  Our Response
                  The Vice Director of the Army Staff addressed all specifics of the recommendation,
                  and no further comments are required.


                  Recommendation A.2
                  We recommend the Assistant Secretary of the Army (Financial management
                  and Comptroller):

                                a. initiate a preliminary review in accordance with DoD Regulation
                                  7000.14-R, “DoD Financial management Regulation,” volume 14,
                                  chapter 3, to determine whether a reportable violation of the



8 │ Report No. DODIG-2014-067
           Antideficiency Act occurred when the Army spent appropriated
           funds to carry out the Korean War 60th Commemoration program
           in excess of the spending limit imposed by Public Law 111-383, and
           provide the results to the DoD Office of Inspector General.

        b. determine which officials are responsible if an Antideficiency Act
           violation has occurred, recommend corrective actions, and provide the
           results to the DoD Office of Inspector General

        c. obtain and review supporting documentation for the $517,510 in
           disbursements and initiate corrective actions if improper payments
           are found.

Assistant Secretary of the Army (Financial Management and
Comptroller) Comments
The Deputy Assistant Secretary of the Army (Financial Operations), responding
for the Assistant Secretary of the Army (Financial Management and Comptroller),
agreed, stating that the Assistant Secretary of the Army (Financial Management
and Comptroller) directed the U.S. Army Resource and Programs Agency to initiate
an investigation and submit a preliminary report by June 20, 2014, which
concludes the potential violation of the Antideficiency Act as coupled with a
legal review. In addition, the preliminary investigation report will include reviewing
disbursement data to determine whether improper payments occurred.  If the
investigation and legal review determine that a reportable Antideficiency Act
violation occurred, the Assistant Secretary of the Army (Financial Management and
Comptroller) will conduct a formal investigation to determine responsible officials
and require corrective actions to prevent recurrence of similar violations.  The
Deputy Assistant Secretary will provide the results of preliminary investigation to the
DoD Office of Inspector General, as well as the results of the formal investigation,
if conducted.


Our Response
The Deputy Assistant Secretary addressed all specifics of the recommendation, and
no further comments are required.




                                                                              Report No. DODIG-2014-067 │ 9
                  Secretary of the Army Comments
                  Although not required to comment, the Vice Director of the Army Staff, responding
                  for the Secretary of the Army, agreed, stating that the Army has opened a
                  preliminary    investigation   and   reiterated   the   comments   from   the   Assistant
                  Secretary of the Army (Financial Management and Comptroller).


                  Our Response
                  The comments from the Vice Director of the Army Staff confirmed the Assistant
                  Secretary of the Army’s (Financial Management and Comptroller) on-going and
                  planned actions to implement our recommendations.




10 │ Report No. DODIG-2014-067
                                                                                              Finding B




Finding B
Donations Were Obligated After Period of Availability
An Army contracting officer obligated $125,100 of donations on behalf of the
Army DCS, G-2 after the period of availability in support of the KWC60 program. In
addition, the Army DCS, G-2 transferred less money than required to the DoD Vietnam
War Commemorative Fund.        These conditions occurred because Army DCS, G-2
indicated on a purchase order for contracted services that the funds had no set
date for expiration instead of referencing Public Law 111-383, which limited the
use of the funds to no later than September 30, 2013. As a result, the Army DCS, G-2
initiated actions that violated Public Law 111-383 and may have violated the
Antideficiency Act.



Donations Improperly Obligated
An Army contracting officer obligated $125,100 of donations on behalf of the
Army DCS, G-2 after the end of the program, when funds were no longer available for
obligation.   The $125,100 in donations was collected and deposited into the DoD
KWC Fund.      On September 27, 2013, the Army DCS, G-2 Budget Office used the
donations to issue a $125,100 purchase request to the Army contracting office,
Picatinny Arsenal, New Jersey, to fund contracted services for the KWC60 program.
On September 28, 2013, the certifying officer at Picatinny Arsenal certified the
availability of the funds requested for obligation and issued a work order. However,
the contracting officer at Fort Dix did not sign the contract modification obligating
the $125,100 until October 10, 2013, 10 days after the period of availability for
the funds expired on September 30, 2013.

Public Law 111-383 authorized the KWC60 program to receive donations from
the public, but required donations to be deposited in the DoD KWC Fund and
limited the use of those funds for the KWC60 program through September 30, 2013.
Specifically, the law required the Secretary of the Treasury to transfer unobligated
amounts remaining in the DoD KWC Fund as of September 30, 2013, to the
DoD Vietnam War Commemorative Fund.            The contracting officer at Fort Dix
stated that she was not aware of the existence of Public Law 111-383 and did not
know that donations were unavailable for obligation after September 30, 2013. She
stated she relied on the work order, which certified the availability of funds, and
the purchase request.    According to the work order prepared by the certifying




                                                                            Report No. DODIG-2014-067 │ 11
Finding B



                  officer,       the    funds     were     available   for     obligation      until    October     31,    2013.
                  Additionally,          the     contracting     officer      stated    that     the         purchase     request
                  cited      the       funds    as     no-year   funds,      which     have    no      set    expiration    date.

                  The Army DCS, G-2 Budget Office should have notified the Army contracting
                  office in the September 27, 2013, purchase request that the funds were
                  available for obligation only through September 30, 2013. The Army DCS, G-2
                  should have ensured that all unobligated funds in the DoD KWC Fund as of
                  September 30, 2013, transferred to the DoD Vietnam War Commemorative Fund,
                  in accordance with Public Law 111-383.                        Therefore, $125,100 in donations in
                  the DoD KWC Fund was not available for obligation on October 10, 2013, to fund
                  contracted services for the KWC60 program.                      As a result of the Army DCS, G-2’s
                  actions, the Army may have violated the Antideficiency Act, section 1341, title 31,
                  United States Code.             The Assistant Secretary of the Army (Financial Management
                  and Comptroller), should initiate a preliminary review to determine whether the
                                                $125,100 obligation of donated funds violated the Antideficiency
                                                     Act and provide the results to the DoD Office of Inspector
                          The
                       Army may                        General. If the Assistant Secretary of the Army (Financial
                   have violated the                    Management and Comptroller) determines a reportable
                  Antideficiency Act,                   Antideficiency Act violation occurred, he should determine
                 section 1341, title 31,
                                                        which officials are responsible, recommend corrective
                     United States
                         Code.                          actions, and provide the results to the DoD Office of
                                                       Inspector General. In addition, the Assistant Secretary of the
                                                     Army (Financial Management and Comptroller), should initiate
                                               corrective action to identify and transfer all unobligated amounts
                  that remained in the DoD KWC Fund as of September 30, 2013, to the DoD Vietnam
                  War Commemorative Fund, in accordance with Public Law 111-383; and consider
                  whether other appropriated funds are available for transfer into the DoD Vietnam
                  War Commemorative Fund to account for the $125,100 that should have transferred
                  in accordance with Public Law 111-383.


                  Transfer of Donations
                  Public Law 111-383 required that unobligated funds remaining in the DoD
                  KWC Fund as of September 30, 2013, be transferred to the DoD Vietnam War
                  Commemorative Fund. In an October 31, 2013, memorandum, the Army Assistant
                  DCS, G-2 reported that the Army DCS, G-2 deposited a total of $126,420 of
                  public donations into the DoD KWC Fund; obligated $125,100 of $126,420 for




12 │ Report No. DODIG-2014-067
contracted services; and identified the remaining balance of $1,320 for DFAS
to transfer to the DoD Vietnam War Commemorative Fund, in accordance with
Public Law 111-383.    We reviewed source documents for donated amounts and
determined that in addition to the improper obligation of $125,100, donations
totaled $200 more than the $126,420 reported. Therefore, public donations totaled
$126,620, and at least $1,520, if not the entire amount, should be transferred to
the DoD Vietnam War Commemorative Fund.

Army DCS, G-2 officials acknowledged and attributed the signing of the contract
modification on October 10, 2013, to a contract backlog caused by the sequestration
of Government employees along with the erroneous report that the funds were
available after September 30, 2013.        Army DCS, G-2 officials stated that the
contracting officer executed the donated funds of $125,100 on good faith,
consistent with the purpose and intention of the donor, in support of the KWC60
program.   Army DCS, G-2 officials also stated that they transferred all funds
remaining in the DoD KWC Fund to the Vietnam War Commemorative Fund
except for the $125,100 donated funds. According to Army DCS, G-2 officials, the
$125,100 was not available for transfer to the DoD Vietnam War Commemorative
Fund because it was obligated on October 10, 2013 and expended for a contract
service performed.  However, as of September 30, 2013, the $125,100 was
unobligated and, based on Public Law 111-383, not available for obligation to fund
contracted services for the KWC60 program on October 10, 2013.          This amount
was intended by Public Law 111-383 to benefit the DoD Vietnam War
Commemorative Fund.


Recommendations, Management Comments, and
Our Response
Recommendation B
We recommend the Assistant Secretary of the Army (Financial management
and Comptroller):

     1.    initiate a preliminary review in accordance with DoD Regulation
           7000.14-R, “DoD Financial management Regulation,” volume 14,
           chapter 3, to determine whether a reportable violation of the
           Antideficiency Act occurred when the Army obligated amounts
           remaining in the DoD Korean War Commemoration Fund after
           September    30,   2013,   in    support   of   the   DoD   Korean   War




                                                                           Report No. DODIG-2014-067 │ 13
                                 60th Commemoration program, and provide the results to the
                                 DoD Office of Inspector General.

                          2.     determine which officials are responsible if an Antideficiency Act
                                 violation has occurred, recommend corrective actions, and provide the
                                 results to the DoD Office of Inspector General.

                          3.     initiate corrective action to identify and transfer, or to otherwise
                                 account for, all unobligated amounts that remained in the DoD
                                 Korean War Commemoration Fund as of September 30, 2013, to
                                 the DoD Vietnam War Commemorative Fund, in accordance with
                                 Public Law 111-383. If $125,100 in donations is not available for
                                 transfer because it was obligated and expended for a contract
                                 service   after   September   30,   2013,   then   determine   whether
                                 other appropriated funds are available for transfer into the
                                 DoD Vietnam War Commemorative Fund to account for the $125,100
                                 that should have transferred in accordance with Public Law 111-383.

                  Assistant Secretary of the Army (Financial Management and
                  Comptroller) Comments
                  The Deputy Assistant Secretary of the Army (Financial Operations), responding
                  for the Assistant Secretary of the Army (Financial Management and Comptroller),
                  agreed, stating that the Assistant Secretary of the Army (Financial Management
                  and Comptroller) directed the U.S. Army Resource and Programs Agency to
                  initiate an investigation and submit a preliminary report by June 20, 2014, which
                  concludes the potential violation of the Antideficiency Act as supported by a legal
                  review. In addition, the preliminary investigation report will include determination
                  of other appropriated funds available for transfer to the DoD Vietnam War
                  Commemorative Fund to meet the public law requirement. If the investigation and
                  legal review determine that a reportable Antideficiency Act violation occurred,
                  the Assistant Secretary of the Army (Financial Management and Comptroller) will
                  conduct a formal investigation to determine responsible officials and require
                  corrective actions to prevent recurrence of similar violations.  The Deputy
                  Assistant Secretary will provide the results of the preliminary investigation to the
                  DoD Office of Inspector General, as well as the results of the formal investigation,
                  if conducted.




14 │ Report No. DODIG-2014-067
Our Response
The Deputy Assistant Secretary addressed all specifics of the recommendation,
and no further comments are required.


Secretary of the Army Comments
Although not required to comment, the Vice Director of the Army Staff, responding
for the Secretary of the Army, agreed, stating that the Army has opened a
preliminary   investigation     and     reiterated   the   comments   from     the   Assistant
Secretary of the Army (Financial Management and Comptroller).                Additionally, the
Vice Director stated that the Army will work to take corrective action if all
appropriate    funds     were     not      transferred     to   the   DoD     Vietnam      War
Commemorative Fund.


Our Response
The comment from the Vice Director of the Army Staff confirmed the Assistant
Secretary of the Army’s (Financial Management and Comptroller) on-going and
planned actions to implement our recommendations, and confirms that the Army
will take appropriate corrective action, if necessary.

 




                                                                                     Report No. DODIG-2014-067 │ 15
Appendixes




                  Appendix A
                  Scope and Methodology
                  We conducted this performance audit from August 2013 through March 2014 in
                  accordance with generally accepted government auditing standards. Those standards
                  require that we plan and perform the audit to obtain sufficient, appropriate evidence
                  to provide a reasonable basis for our findings and conclusions based on our audit
                  objectives. We believe that the evidence obtained provides a reasonable basis for
                  our findings and conclusions based on our audit objectives.

                  We visited the ABO and the Army DCS, G-2 Headquarters and interviewed key
                  personnel responsible for the planning, funding, and executing the KWC60 program
                  and obtained an understanding of the key processes, functions, and responsibilities.
                  We reviewed obligations and disbursements related to KWC60 program funds and
                  cost. The Army DCS, G-2 could not provide the supporting documentation for all
                  obligations and disbursements related to the KWC60 program.              Therefore, we
                  contacted DFAS and obtained supporting documentation for $3.5 million in
                  disbursements. We obtained and examined the following documents:

                             • Status of Funds Reports generated from the Standard Finance System
                                 and GFEBS;

                             • delegation letters, spending plans, course of action plans, funding
                                 authorization documents;

                             • supporting documentation for donated funds, including checks received
                                 from the public and deposit tickets;

                             • obligation documents, such as contracts and modifications, military
                                 interdepartmental     purchase     requests   and   acceptances,   travel
                                 authorizations, and preapproval forms for Government purchase-card
                                 purchases; and

                             • billing and payment documents, such as invoices, disbursement vouchers,
                                 receiving reports, travel vouchers, Government purchase-card bank
                                 statements, and vendor receipts.




16 │ Report No. DODIG-2014-067
                                                                                           Appendixes



Use of Computer-Processed Data
We used the funding and cost data that Army DCS, G-2 Budget Office personnel
manually compiled from the reports generated by two accounting systems: the
Standard Finance System and the GFEBS. We tested the reliability of system-generated
data by tracing transaction amounts to source documents to test data accuracy.
We traced the source documents to the transaction data, including documents we
obtained from the Electronic Data Access website and DFAS, to test for completeness.
As a result, we identified discrepancies between the transaction data and source
documents, as discussed in Finding A.  Therefore, we concluded that transaction
data that the Standard Finance System and GFEBS generated to provide the
KWC60 program funding and costs information were not reliable.


Use of Technical Assistance
We did not use technical assistance in conducting this audit.


Prior Coverage
No   prior   coverage   has   been    conducted    on   Korean   War   Commemoration
programs during the last 5 years.

 




                                                                            Report No. DODIG-2014-067 │ 17
Appendixes




                  Appendix B
                  DoD Designation of Executive Agent




18 │ Report No. DODIG-2014-067
                                                             Appendixes



DoD Designation of Executive Agent (cont’d)




                                              Report No. DODIG-2014-067 │ 19
Appendixes




                  Appendix C
                  Army Delegation of Executive Agent




20 │ Report No. DODIG-2014-067
                                                                                              Appendixes




Appendix D
Other Management Comments and Our Response
Management Comments on the DoD KWC Fund
The Vice Director of the Army Staff, responding for the Secretary of the Army,
stated that the report was not accurate in discussing the DoD KWC Fund. He stated
that any and all references to the DoD KWC Fund throughout the report were
inaccurate because the Department of the Treasury never established the fund as
Public Law 111-383 prescribed.


Our Response
The statement of the Vice Director of the Army Staff is incorrect.          The Federal
Account Symbols and Titles Book, a supplement to the Treasury Financial Manual,
lists the Department of Defense Korean War Commemoration Fund, Army, 21X5752
as established pursuant to Public Law 111-383. Additionally, Treasury’s annual reports
for FYs 2012 and 2013—specifically the Combined Statement of Receipts, Outlays,
and Balances, Part Three, Department of Defense-Military Detail of Appropriations,
Outlays, and Balances—include financial entries for this account.


Management Comments on Appropriated Funds
The Vice Director of the Army Staff stated that there were no monies appropriated to the
DoD for the KWC60 program and the Army used the Army O&M funds for over 99 percent
of the program expenses.


Our Response
Our report, in the Management of Program Funds section, stated that the KWC60
program used the Army O&M Fund and donations to the DoD KWC Fund.                    The
specific report statement that the Vice Director referenced was the statutory
requirements excerpted from Public Law 111-383.


Management Comments on the Role of the Assistant
Secretary of Defense for Public Affairs
The Vice Director of the Army Staff stated that the report failed to acknowledge
the role of the Assistant Secretary of Defense for Public Affairs to provide guidance and
oversight for the KWC60 program.




                                                                               Report No. DODIG-2014-067 │ 21
Appendixes



                  Our Response
                  We added a description of the oversight role assigned to the Assistant Secretary of
                  Defense for Public Affairs to the Designation of Executive Agent section of the report.

                  The Vice Director of the Army Staff included a matrix to support his rationale for the
                  above comments. We did not include the matrix in the report as the comments were
                  editorial in nature or factually incorrect.




22 │ Report No. DODIG-2014-067
                                 Management Comments




M
Secretary of the Army Comments




                                 Report No. DODIG-2014-067 │ 23
Management Comments



                  Secretary of the Army Comments (cont’d)




24 │ Report No. DODIG-2014-067
                                          Management Comments



Secretary of the Army Comments (cont’d)




                                          Report No. DODIG-2014-067 │ 25
Management Comments



                  Secretary of the Army Comments (cont’d)




26 │ Report No. DODIG-2014-067
                                          Management Comments



Secretary of the Army Comments (cont’d)




                                          Report No. DODIG-2014-067 │ 27
Management Comments



                  Assistant Secretary of the Army (Financial Management
                  and Comptroller) Comments




28 │ Report No. DODIG-2014-067
                                               Management Comments



Assistant Secretary of the Army (Financial Management
and Comptroller) Comments (cont’d)




                                               Report No. DODIG-2014-067 │ 29
Acronyms and Abbreviations




                  Acronyms and Abbreviations
                         ABO Army Budget Office
                         DCS Deputy Chief of Staff
                        DFAS Defense Finance and Accounting Service
                       GFEBS General Fund Enterprise Business System
                         KWC Korean War Commemoration
                      KWC60 Korean War 60th Commemoration
                        O&M Operations and Maintenance




30 │ Report No. DODIG-2014-067                                         Project No. D2013-D000FE-0150.000│ 30
           Whistleblower Protection
          U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions
on retaliation, and rights and remedies against retaliation for
protected disclosures. The designated ombudsman is the DoD
Hotline Director. For more information on your rights and
remedies against retaliation, go to the Whistleblower webpage at
             www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                      Congressional Liaison
               Congressional@dodig.mil; 703.604.8324

                            media Contact
               Public.Affairs@dodig.mil; 703.604.8324

                        monthly Update
                dodigconnect-request@listserve.com

                      Reports mailing List
                    dodig_report@listserve.com

                              Twitter
                        twitter.com/DoD_IG

                          DoD Hotline
                         dodig.mil/hotline
D E PA R T M E n T O F D E F E n S E │ I n S P E C T O R G E n E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
